COCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga l B rt ie f S contact@cocklelegalbriefs.com

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 Nos. 19-251 & 19-255

AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
v.

XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF CALIFORNIA,
Respondent.

THOMAS MORE LAW CENTER,
Petitioner,

ve
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF CALIFORNIA,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 25th day of September, 2019, send
out from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF THE CATO INSTITUTE, COMMITTEE FOR
JUSTICE, AND TEXAS CHARTER SCHOOLS ASSOCIATION AS AMICI CURIAE IN SUPPORT OF PETITIONERS in
the above entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed
to the following:

SEE ATTACHED
To be filed for:
Curt Levey Tlya Shapiro
COMMITTEE FOR JUSTICE Counsel of Record
1629 K St., NW, Suite 300 Trevor Burrus
Washington, D.C. 20006 CATO INSTITUTE

(202) 270-7748
clevey@committeeforjustice.org

Subscribed and sworn to before me this 25th day of September, 2019.

1000 Mass. Ave., NW
Washington, DC 20001
(202) 842-0200
ishapiro@cato.org
tburrus@cato.org

Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

 

 

Affiant 38560
 

Attorneys for Petitioner

Derek L. Shaffer
Counsel of Record

Quinn Emanuel Urquhart & Sullivan, LLP
1300 | Street NW, Suite 900
Washington, DC 20005

derekshaffer@quinnemanuel.com

(202) 538-8000

 

Attorneys for Petitioner

John J. Bursch
Counsel of Record

ee name: Americans for Prosperity Foundation

Alliance Defending Freedom
440 First Street, NW

Suite 600

Washington, DC 20001

jbursch@adflegal.org

—

(616) 450-4235

 

Attorneys for Respondent

Aimee Athena Feinberg
Counsel of Record

 

Pe name: Thomas More Law Center

California Department of Justice
1300 | Street
Sacramento, CA 95814

Aimee.Feinberg@doj.ca.gov

(916) 210-6003

 

Party name: Xavier Becerra, in his official capacity as the Attorney General of California

 
